No.
IN THE
SUPREME COURT OF THE UNITED STATES

WEI-PING ZENG
Petitioner,
v.

TEXAS TECH UNIVERSITY HEALTH SCIENCE CENTER AT EL PASO; PETER
ROTWEIN; RICHARD LANGE; BEVERLEY COURT; REBECCA SALCIDO,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals, Fifth Circuit

DECLARATION OF SERVICE

1. My name is Wei-ping Zeng

RECEIVED
MAY I k 2021

2. My birthday is Feb 12, 1966
3. My address is 3128 Ferguson Road, Huntington, WV 25705
4. I am competent to make the following declaration pursuant to 28 U.S.C. §1746
5. To the best of my knowledge, I declare the following:
6. I am the Petitioner of the “Petition for Writ of Certiorari” for the case Wei-ping
Zeng v. Texas Tech University Health Science Center at El Paso; Peter Rotwein;
Richard A. Lange; Beverley Court; Rebecca Salcido
7. On May 11, 2021, I served Respondents Texas Tech University Health Science
Center at El Paso; Peter Rotwein; Richard A. Lange; Beverley Court; Rebecca

Salcido, through their counsel Rola Daaboul, an electronic copy of the “Petition
for Writ of Certiorari” and “Appendix” by email
8. Rola Daaboul’s address, phone number and email address are: General
Litigation Division, P.O. Box 12548, Capitol Station Austin, Texas 78711-2548;
(512) 936-1322; rola.daaboul@oag.texas.gov
9. Respondents’ counsel Rola Daaboul has agreed to electronic service by email
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 11th Day of May 2021.

Signature:

'•'7.
WEI-PING ZENG

